No. 19-1061
IN THE

Supreme Court of the United States
DR. REDDY’S LABORATORIES, LTD., ET AL.,
Petitioners,
v.
ELI LILLY AND COMPANY,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
BRIEF FOR THE ASSOCIATION FOR
ACCESSIBLE MEDICINES AS AMICUS CURIAE
SUPPORTING PETITIONERS

EDWINA B. CLARKE
BRIAN T. BURGESS
GOODWIN PROCTER LLP Counsel of Record
100 Northern Ave.
WILLIAM M. JAY
Boston, MA 02210
GOODWIN PROCTER LLP
1900 N St., N.W.
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
March 27, 2020

i
TABLE OF CONTENTS
Page
INTEREST OF THE AMICUS CURIAE ................... 1
INTRODUCTION ....................................................... 3
ARGUMENT ............................................................... 8
The Federal Circuit’s Unbounded
“Tangential Exception” To
Prosecution History Estoppel
Conflicts With This Court’s
Precedents. .................................................. 8

I.

II.

A.

This Court Has Placed Important
Limits On the Doctrine Of
Equivalents. ........................................... 8

B.

The Federal Circuit’s Decision
Cannot Be Squared With Festo
and Warner-Jenkinson........................ 12
The Federal Circuit’s Tangential
Exception to Prosecution History
Estoppel Will Undermine
Competition-Promoting Investments
in the Generic Drug and Biosimilar
Industries. ................................................. 18

CONCLUSION ......................................................... 21

ii

TABLE OF AUTHORITIES
Page(s)
CASES:
Ajinomoto Co. v. ITC,
932 F.3d 1342 (Fed. Cir. 2019)......................passim
Eli Lilly & Co. v. Teva Parental
Medicines, Inc.,
689 F.3d 1368 (Fed. Cir. 2012)............................. 19
Exhibit Supply Co. v. Ace Patents Corp.,
315 U.S. 126 (1942) ................................................ 9
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co.,
535 U.S. 722 (2002) .......................................passim
General Elec. Co. v. Wabash Appliance
Corp.,
304 U.S. 364 (1938) ................................................ 8
I.T.S. Rubber Co. v. Essex Rubber Co.,
272 U.S. 429 (1926) .............................................. 10
Keystone Driller Co. v. Northwest Eng’g
Corp.,
294 U.S. 42 (1935) ................................................ 10
Nautilus, Inc. v. Biosig Instruments,
Inc.,
572 U.S. 898 (2014) .......................................... 3, 18

iii

Schwarz Pharma, Inc. v. Paddock Labs.,
Inc.,
504 F.3d 1371 (Fed. Cir. 2007)............................. 20
Teva Pharm. USA, Inc. v. Sandoz, Inc.,
135 S. Ct. 831 (2015) .............................................. 8
United Carbon Co. v. Binney & Smith
Co.,
317 U.S. 228 (1942) .......................................... 6, 18
Warner-Jenkinson Co. v. Hilton Davis
Chem. Co.,
520 U.S. 17 (1997) .........................................passim
STATUTES:
35 U.S.C. § 112(b) ........................................................ 8
OTHER AUTHORITIES:
Association for Accessible Medicines,
The Case for Competition: 2019
Generic Drug & Biosimilars Access &
Savings in the U.S. Report (2019).......................... 3
Biosimilars Council, Failure to Launch:
Patent Abuse Blocks Access to
Biosimilars for America’s Patients
(June 2019) ....................................................... 7, 19
Erwin A. Blackstone & Joseph P. Fuhr,
Jr., The Economics of Biosimilars, 6
AM. HEALTH & DRUG BENEFITS 469478 (2013) ............................................................. 20

INTEREST OF THE AMICUS CURIAE 1
The Association for Accessible Medicines (“AAM”)
is a nonprofit, voluntary association representing
manufacturers and distributors of generic and
biosimilar medicines and bulk active pharmaceutical
chemicals, as well as suppliers of other goods and
services to the generic pharmaceutical industry.
AAM’s members provide patients with access to safe
and effective generic and biosimilar medicines at
affordable prices. AAM’s core mission is to improve
the lives of patients by providing timely access to safe,
effective, and affordable prescription medicines.
Generic drugs constitute 90% of all prescriptions
dispensed in the United States, yet generics account
for only 22% of total drug spending. AAM regularly
participates in litigation as amicus curiae.
AAM and its members have a significant interest
in the question presented by the petition for certiorari.
Manufacturers of generic and biosimilar medicines
make substantial investments to bring low-cost
treatments to market. They do so based on their
understanding of the scope of patent claims as
established by the public documents associated with
the patent, which includes the claims themselves as
well as the prosecution history. When, as here, a
brand manufacturer gives up particular equivalents
during patent prosecution in order to secure a patent,
generic and biosimilar manufacturers reasonably rely
1 AAM provided timely notice of intent to file this brief, and all
parties have consented to the filing of this brief. No counsel for a
party authored this brief in whole or in part, and no person other
than amicus curiae, its members, or its counsel made a monetary
contribution to the brief’s preparation or submission.

2
on the public record and the doctrine of prosecution
history estoppel in seeking to design around patent
claims that were deliberately and unambiguously
narrowed. This ability to design around patent claims
is essential to competition in the pharmaceutical
industry.
Recent decisions by the Federal Circuit, including
the decision below, disregard this Court’s precedent
and threaten such competition. As exemplified by this
case, the Federal Circuit has fundamentally misread
this Court’s decision in Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 740
(2002), in applying a broad “tangential exception” to
prosecution history estoppel that is both sweeping and
indeterminate. Under the Federal Circuit’s approach,
an amendment may be characterized as “tangential”
to an equivalent anytime a court decides—typically,
many years after-the-fact—that the patentee did not
really “need or intend” to narrow its claims quite so far
as it did. Pet. App. 20a. This doctrine of prosecutor’s
remorse leaves AAM’s members unable to rely on the
representations
made
by
brand-name
drug
manufacturers to the Patent Office, since those
manufacturers may now effectively rewrite their
amendments years later in litigation. Absent review
by this Court, these new Federal Circuit precedents
will impose a significant impediment to generic and
biosimilar competition, to the detriment of AAM
members and the public at large.

3
INTRODUCTION
Clear rules for determining the scope of patent
rights are “essential to promote progress,” because
clarity “enables efficient investment in innovation.”
Festo, 535 U.S. at 730-731. As this Court has
recognized, the public “should know” the limits of a
patent, so that people and companies remain free “to
pursue innovations, creations, and new ideas beyond
the inventor’s exclusive rights.” Id.; see also Nautilus,
Inc. v. Biosig Instruments, Inc., 572 U.S. 898, 909
(2014) (“[A] patent must be precise enough to afford
clear notice of what is claimed, thereby apprising the
public of what is still open to them.” (quotation marks
and brackets omitted)).
Under this Court’s precedent, that is exactly what
AAM members have been able to do. AAM members
make substantial investments to bring generic and
biosimilar medicines to market as early as possible, in
part by seeking to design around the patent claims of
brand manufacturers. And those investments have
paid enormous dividends for public health. Over the
last decade, generic drugs have saved the U.S.
healthcare system nearly two trillion dollars. 2
Two recent decisions by the Federal Circuit
jeopardize the ability of AAM members to invest in
new generic and biosimilar medications by making the
scope of brand manufacturers’ patent rights
impossible to discern in advance of infringement
See Association for Accessible Medicines, The Case for
Competition: 2019 Generic Drug & Biosimilars Access & Savings
in
the
U.S.
Report
10
(2019),
available
at
https://accessiblemeds.org/sites/default/files/2019-09/AAM-2019Generic-Biosimilars-Access-and-Savings-US-Report-WEB.pdf.
2

4
litigation. See Pet. App. 1a-30a; Ajinomoto Co. v. ITC,
932 F.3d 1342 (Fed. Cir. 2019), petition for cert.
pending, No. 19-1062 (filed Feb. 24, 2020). These
decisions significantly expand the “doctrine of
equivalents,” which, under limited circumstances,
allows a patent’s monopoly to extend beyond the literal
claims. The Federal Circuit’s misguided approach to
this important issue of patent law requires this
Court’s review.
Under established law, if a patentee amends its
patent claims to overcome a Patent Office rejection, it
presumptively surrenders any equivalents that were
covered by the initial claim but not by the amendment.
Although the patentee may overcome that
presumption of surrender in subsequent infringement
litigation, it has the burden to “show that at the time
of the amendment one skilled in the art could not
reasonably be expected to have drafted a claim that
would have literally encompassed the alleged
equivalent.” Festo, 535 U.S. at 741. To satisfy this
burden, the patentee must put forward objective
evidence from the prosecution record; it may not rely
on post-hoc rationalizations for its amendment in
order to recapture an equivalent through litigation.
See Warner-Jenkinson Co. v. Hilton Davis Chem. Co.,
520 U.S. 17, 33-34 (1997).
Significantly, these rules apply to all the grounds a
patentee may invoke to overcome the presumption of
estoppel, including the so-called “tangential” exception
relied on by respondent Eli Lilly (“Lilly”) and the
Federal Circuit here. See Pet. 24-25; pp. 11-12, 15,
infra. By imposing these limits on the doctrine of
equivalents, the Court’s precedent “gives proper
deference to the role of claims in defining an invention

5
and providing public notice.” Warner-Jenkinson, 520
U.S. at 33.
The decisions by the Federal Circuit in this case
and in Ajinomoto are irreconcilable with this Court’s
precedent. Disregarding Festo’s central rationale, the
Federal Circuit now allows patentees to avoid estoppel
even where the prosecution history shows that the
patentee “knew the words for both the broader and
narrower claim, and affirmatively chose the latter.”
535 U.S. at 735. All a patentee needs to do is argue
that its decision to choose the narrower language was
“inartful,” since it did not “need or intend” to give up
so much claim scope to obtain its patent. Pet. App. 20a.
And if a judge credits that post-hoc explanation, based
on unspecified “case-specific” factors, Pet. App. 22a n.5,
the patentee can effectively rewrite its claims in
litigation to block competition by companies that
reasonably relied on the plain language of the
amended claims and the prosecution history.
The facts of this case are stark, making it a perfect
vehicle to review the Federal Circuit’s misguided
approach to prosecution history estoppel. Here, the
Federal Circuit allowed Lilly to block generic
alternatives to its cancer drug Alimta, even though
generic competitors scrupulously avoided infringing
claims in Lilly’s patent, which covered only the
compound found in Alimta: pemetrexed disodium. See
Pet. 10-16. The prosecution record confirmed that
Lilly’s claims did not cover alternative compounds,
including other pemetrexed salts. Specifically, in
response to an examiner’s rejection, Lilly amended its
claims to recite only pemetrexed disodium—even
though Lilly had previously claimed “pemetrexed,”
including the various pemetrexed salts, in other

6
patent applications for Alimta. Pet. App. 18a. The
Federal Circuit, however, refused to hold Lilly to its
prosecution choice, determining that Lilly’s decision to
claim only pemetrexed disodium could be disregarded
under the “tangential” exception as mere “inartful”
drafting. Pet. App. 20a. The court reached that
conclusion even though there is nothing in the
prosecution record that explains why Lilly chose to
claim only the specific form of pemetrexed used in
Lilly’s commercial product.
Although the legal error in this case is especially
glaring, it is not case-specific. A divided panel of the
Federal Circuit made the same fundamental mistake
in Ajinomoto, crediting the patentee’s post hoc
reconstruction of the rationale for its claim
amendment, 932 F.3d at 1355, while “ignor[ing]” the
specific way that “the patentee deliberately elected to
narrow the claims,” id. at 1363 (Dyk, J., dissenting).
In short, the Federal Circuit has gone badly astray
in how it applies prosecution history estoppel, and its
misunderstanding of this Court’s precedents will have
serious negative consequence. In particular, the
Federal Circuit’s sweeping but vague exception to
prosecution history estoppel will deter “efficient
investment in innovation.” Festo, 535 U.S. at 731. As
this Court has long recognized, “[a] zone of uncertainty
which enterprise and experimentation may enter only
at the risk of infringement claims would discourage
invention only a little less than unequivocal
foreclosure of the field.” United Carbon Co. v. Binney
& Smith Co., 317 U.S. 228, 236 (1942).
The impact of the Federal Circuit’s decisions on
competition in the pharmaceutical industry will be

7
especially
acute.
Generic
and
biosimilar
manufacturers typically must navigate a dizzying
array of patent claims given that brand manufacturers
frequently adopt a strategy of accumulating numerous
patents near the end of a product’s life-cycle in order
to extend their patent monopolies. 3 A critical tool for
cutting through these patent estates is for generic and
biosimilar
manufacturers
to
design
around
questionable patent claims.
But this path to
competition is only viable if patent scope is predictable.
Developing new generic and biosimilar medicines is
both expensive and time-consuming, costing millions
of dollars (or more) and taking several years to
complete product testing and secure regulatory
approval. Manufacturers will not be willing to make
these investments if they lack confidence that the
unequivocal representations made to the Patent Office
will hold up years later during infringement litigation.
The Court should grant the petition for certiorari
and reverse the Federal Circuit’s decision.

3 See Biosimilars Council, Failure to Launch: Patent Abuse Blocks
Access to Biosimilars for America’s Patients, 5-7 (June 2019),
www.biosimilarscouncil.org/resource/failure-to-launch-whitepaper (“Failure to Launch”).

8
ARGUMENT
I.

The Federal Circuit’s Unbounded
“Tangential Exception” To Prosecution
History Estoppel Conflicts With This Court’s
Precedents.
A. This Court Has Placed Important
Limits On the Doctrine Of
Equivalents.

1. The scope of a patentee’s rights are “define[d]”
by the patent’s claims, Teva Pharm. USA, Inc. v.
Sandoz, Inc., 135 S. Ct. 831, 835 (2015) (quotation
marks omitted), which must “point[] out and distinctly
claim[] the subject matter which the inventor . . .
regards as the invention,” 35 U.S.C. § 112(b). This
statutory claiming requirement “seeks to guard
against unreasonable advantages to the patentee and
disadvantages to others arising from uncertainty as to
their rights.” General Elec. Co. v. Wabash Appliance
Corp., 304 U.S. 364, 369 (1938).
Notwithstanding the Patent Act’s command, the
Court has held that a patentee sometimes may enforce
its property right against a competitor that does not
“literally infringe upon the express terms of a patent
claim” if there is an “equivalence between the
elements of the accused product or process and the
claimed elements of the patented invention.” WarnerJenkinson, 520 U.S. at 21 (quotation marks omitted).
But the Court has also disapproved of applications of
this doctrine of equivalents that are “unbounded by
the patent claims,” recognizing that the doctrine, if
interpreted too loosely, will “conflict[] with the

9
definitional and public-notice functions of
statutory claiming requirement.” Id. at 28-29.

the

Thus, as the Court has explained, the doctrine of
equivalents must be applied in a manner that strikes
a balance between two competing concerns. On the
one hand, requiring clarity about the scope of a
claimed invention promotes competition and
innovation: a patent is “a property right; and like any
property right, its boundaries should be clear.” Festo,
535 U.S. at 730-731. On the other hand, a strict
literalist application of a patent’s claims would allow
competitors to “exploit[]” imprecisions in the “nature
of language” by making “trivial changes” to the
invention. Id. at 733. The doctrine of equivalents
accounts for the fact that “[t]he language in the patent
claims may not capture every nuance of the invention,”
id. at 731, while still ensuring that the “definitional
and public-notice functions of the statutory claiming
requirement” are protected by treating “[e]ach
element contained in a patent claim” as material and
enforcing “well-established limit[s]” on the doctrine’s
scope, Warner-Jenkinson, 520 U.S. at 29-30.
2. One “well-established limit” on the doctrine of
equivalents is prosecution history estoppel. Id. at 30.
Prosecution history estoppel prevents a patentee from
recapturing under the doctrine of equivalents subject
matter surrendered during prosecution in order to
obtain the patent. See Exhibit Supply Co. v. Ace
Patents Corp., 315 U.S. 126, 136-137 (1942). The
doctrine most obviously bars a patentee from
reclaiming equivalents that it gave up to overcome an
examiner’s patentability rejection—for example, an
equivalent that appeared in the prior art. See Festo,

10
535 U.S. at 735-736; Keystone Driller Co. v. Northwest
Eng’g Corp., 294 U.S. 42, 48 (1935).
But prosecution history estoppel extends beyond
merely enforcing the patentee’s necessary concessions,
because the prosecution history provides an important
public record of the invention’s scope. As the Court
explained in Festo—the Court’s most recent decision
on the topic—because “[t]he doctrine of equivalents is
premised on language’s inability to capture the
essence of innovation,” prosecution history “may rebut
the inference that a thing described was indescribable.”
535 U.S. at 735-736. Following an amendment,
restrictions on claim scope cannot be explained away
as linguistic imprecisions; to the contrary, “the
inventor turned his attention to the subject matter in
question, knew the words for both the broader and
narrower claim, and affirmatively chose the latter.” Id.
The public notice function of a patent and its
prosecution history requires that a patentee be held to
that choice. See I.T.S. Rubber Co. v. Essex Rubber Co.,
272 U.S. 429, 443-444 (1926) (“[L]imitations imposed
by the inventor, especially such as were introduced
into an application after it had been persistently
rejected, must be strictly construed against the
inventor and looked upon as disclaimers.”).
Of course, the fact that an inventor “turned [its]
attention” to the scope of a particular claim does not
make the inventor clairvoyant. Festo, 535 U.S. at 735.
“The patentee, as the author of the claim language,
may be expected to draft claims encompassing readily
known equivalents,” but there are cases in which a
skilled artisan could not have anticipated an
amendment’s implications for a particular equivalent.
Id. at 740. Thus, under Festo, courts must “presume

11
that the patentee surrendered all subject matter
between the broader and the narrower language,” but
the patentee can overcome that presumption by
showing that “at the time of the amendment one
skilled in the art could not reasonably be expected to
have drafted a claim that would have literally
encompassed the alleged equivalent.” Id. at 741.
In Festo, the Court identified three situations in
which an amendment “cannot reasonably be viewed as
surrendering a particular equivalent”:
[1] The equivalent may have been
unforeseeable at the time of the
application; [2] the rationale underlying
the amendment may bear no more than a
tangential relation to the equivalent in
question; or [3] there may be some other
reason suggesting that the patentee
could not reasonably be expected to have
described the insubstantial substitute in
question.
Id. at 740-741. This case turns on the so-called
“tangential” exception to estoppel. Pet. App. 18a. As
petitioners note (at 8-9), both the origins and contours
of that exception are somewhat opaque: the Court in
Festo modeled its burden-shifting approach on the
position “advocated by the United States,” Festo, 535
U.S. at 740, but the Solicitor General’s brief did not
outline a potential “tangential” exception to estoppel.
The full context of the Court’s opinion, however,
makes clear that the exception is narrow because—
like the other two situations discussed by the Court—
it is only applicable in cases where the patentee “could
not reasonably [have been] expected to have drafted a

12
claim that would have literally encompassed the
alleged equivalent.” Id. at 741.
Moreover, by placing the burden on the patentee to
overcome the estoppel presumption, this Court’s
precedent requires the patentee to put forward
objective evidence from the prosecution history—not
post-hoc rationalizations. “When the patentee is
unable to explain the reason for the amendment,
estoppel not only applies but also bars the application
of the doctrine of equivalents as to that element.” Id.
at 740. Thus, when the record reveals only “the
absence of a reason for an amendment,” prosecution
history estoppel applies, and the patentee may not
invoke the doctrine of equivalents. Warner-Jenkinson,
520 U.S. at 33.
B. The Federal Circuit’s Decision
Cannot Be Squared With Festo and
Warner-Jenkinson.
The approach to prosecution history estoppel
adopted by the Federal Circuit here and in Ajinomoto
conflicts with this Court’s precedent, eviscerating a
critical limit on the doctrine of equivalents.
As set out by petitioners, the Federal Circuit’s error
was fundamental, deriving from how the court framed
the basic issue. Pet. 18-24; see also Pet. of Hospira, Inc.
in No. 19-1058, at 19-21. Rather than requiring Lilly
to explain the rationale for the specific claim language
it adopted—here, narrowing the patent’s claims to
cover pemetrexed disodium, the formulation used in
Lilly’s own commercial product—the Federal Circuit
looked instead to Lilly’s general reason for amending
its claims at all. Pet. App. 19a-22a. Reasoning that

13
Lilly had no need to distinguish between different
forms of pemetrexed in order to avoid the Patent
Office’s prior-art rejection, the Federal Circuit
concluded that Lilly had not surrendered other
pemetrexed salts because its amendment had been
“prudential in nature,” albeit “inartful.” Pet. App. 20a;
see also Pet. App. 25a. The Federal Circuit in
Ajinomoto applied the same form of reasoning, with
the panel relying on its own assessment of the scope
that the patentee needed to surrender to overcome a
rejection, 932 F.3d at 1355, while “ignor[ing] how the
patentee deliberately elected to narrow the claims,” id.
at 1363 (Dyk, J., dissenting). This approach to
estoppel not only conflicts with the approach taken by
other panels of the Federal Circuit (Pet. 18-20, 22), but
it is irreconcilable with this Court’s precedent for
several reasons.
1. By disregarding the specific language that a
patentee chose when amending its claims—and
instead looking only to why the patentee was
motivated to amend its claims in the first place—the
Federal Circuit has turned the tangential exception
into a doctrine of prosecutor’s remorse. Any time that
a patentee surrenders more than was strictly
necessary to overcome a rejection, it will follow almost
by
definition
that
equivalents
surrendered
improvidently are merely “tangential” to the
amendment’s rationale. After all, the “reason for the
amendment” will typically be found in “the prior art
that might have given rise to the amendment in the
first place.” Pet. App. 21a. Under the Federal
Circuit’s
reasoning,
gratuitously
surrendered
equivalents are invariably “tangential” to the
rationale for an amendment to avoid the prior art.

14
This Court’s decisions, by contrast, have focused on
the particular language used in a narrowing
amendment. Warner-Jenkinson is illustrative. There,
the patent-in-suit described a process for purifying
dyes by filtering the dye through a porous membrane
at certain pressures and pH levels. 520 U.S. at 21-22.
The asserted claims included the requirement that the
purification occur at a “pH from approximately 6.0 to
9.0”—a requirement that was added during
prosecution to distinguish a prior-art reference
(“Booth”) that disclosed a process at a pH above 9.0.
Id. at 22. The accused process, in turn, occurred at a
pH of 5.0. Id. As the Court recognized, the patentee’s
need to overcome Booth only explained why it had
adopted the upper endpoint of the pH range; the record
did “not . . . reveal the reason for including the lower
pH limit of 6.0.” Id. at 32-33. Rather than allow the
patentee to benefit from such ambiguity, the Court
concluded that because “claims . . . serve both a
definitional and notice function,” the patentee had “to
establish the reason for [this] amendment during
patent prosecution.” Id. at 33. If it failed to do so on
remand, then the tie would go to the public and
prosecution history estoppel would apply. Id. 4
The Federal Circuit’s approach to prosecution
history estoppel would yield the wrong result on the
facts of Warner-Jenkinson. Under the reasoning
applied by the panel, the absence of evidence in the
Warner-Jenkinson preceded the Court’s decision in Festo, which
is the source of the Federal Circuit’s “tangential” exception to
estoppel. But Festo endorsed Warner-Jenkinson’s reasoning on
this issue, building on that decision in establishing a burdenshifting rule. See Festo, 535 U.S. at 739-740.
4

15
prosecution record to explain the choice to include a
lower pH limitation would redound to the patentee’s
benefit. The court would identify “the prior art that . . .
gave rise to the amendment in the first place” (Booth),
and conclude that the patentee could claim processes
with a pH under 6.0 because the patentee did not
“need or intend to cede” processes below the 6.0 to 9.0
pH range in order to distinguish Booth. Pet. App. 20a.
That outcome is wrong for the reason that this Court
already identified: it disregards the important “notice
function” that patent claims are supposed to serve.
Warner-Jenkinson, 520 U.S. at 33.
2. The Federal Circuit’s broad approach to the
“tangential” exception to prosecution history estoppel
also unmoors that exception from this Court’s
reasoning in Festo. As discussed, pp. 10-12, supra, in
Festo, the Court explained that “[t]he doctrine of
equivalents is premised on language’s inability to
capture the essence of invention.” 535 U.S. at 734.
The Court recognized narrow exceptions to estoppel
based on the same understanding, reasoning that an
inventor does not “suddenly [acquire] more foresight”
when drafting an amendment than she had when first
drafting her claims, which means she still cannot be
expected to anticipate all possible equivalents. Id. at
738. The Court thus held that in order to rebut the
presumption of prosecution history estoppel (under
any rationale), the patentee must “show that at the
time of the amendment one skilled in the art could not
reasonably be expected to have drafted a claim that
would have literally encompassed the alleged
equivalent.” Id. at 741.
There is no serious argument here that Lilly
“lacked the words to describe the subject matter in

16
question” by drafting an amendment that “would have
literally encompassed the alleged equivalent.” Id. at
734, 741. Indeed, Lilly had “claimed pemetrexed salts
generally” in related patents, yet it chose to claim only
“pemetrexed disodium” when narrowing the claims of
the patent-in-suit. Pet. App. 18a; see also Pet. 10-11,
25.
Significantly, the Federal Circuit did not suggest
otherwise. Instead, and remarkably, the Federal
Circuit stated that Lilly’s unquestioned ability to draft
an amended claim that encompassed the alleged
equivalent was irrelevant, on the theory that courts
“do not demand perfection from patent prosecutors.”
Pet. App. 22a. That reasoning fundamentally and
directly contradicts the holding of Festo in a manner
that cannot be dismissed as a case-specific error.
Stripping a single sentence from its context in Festo,
the court has created a broad “tangential” exception to
prosecution history estoppel that is completely
divorced from Festo’s animating rationale. See Pet. of
Hospira, Inc. in No. 19-1058, at 15-19. This Court’s
intervention is needed to reconnect the doctrine to
Festo’s reasoning.
3. The Federal Circuit’s approach to estoppel also
conflicts with this Court’s precedent because it lets
patentees recover claim scope surrendered during
prosecution based on post-hoc rationalizations of their
amendments. Even though there is no evidence in the
prosecution record about why Lilly chose to narrow its
patent claims to cover only pemetrexed disodium
rather than pemetrexed, the Federal Circuit accepted
Lilly’s assertion that the amendment was “prudential,”
meaning it was intended merely to avoid a prior art
reference that did not implicate any distinction

17
between pemetrexed salts. Pet. App. 20a. As a result,
the Federal Circuit declared that it was “unlikely that
a competitor would have been justified in assuming”
that alternative forms of pemetrexed would not
infringe—notwithstanding that Lilly’s amended
claims unequivocally exclude those alternative forms.
Pet. App. 20a, 21a (quotation marks omitted).
By accepting Lilly’s after-the-fact explanation of its
amendment without requiring Lilly to put forward
objective evidence demonstrating the rationale for its
specific choice, the Federal Circuit relieved Lilly of its
“burden to show[] that the amendment does not
surrender the particular equivalent in question.”
Festo, 535 U.S. at 740. This approach to estoppel
makes the inquiry hopelessly indeterminate.
Competitors seeking to make investments in
developing products or methods that avoid infringing
patent claims will be unable to rely on either the plain
language of the claims or the objective record of
prosecution, since a panel of the Federal Circuit might
later conclude that it was “unlikely” those competitors
were justified in taking an “inartful” amendment at
face value. Pet. App. 20a, 21a. Accord Pet. of CJ
CheilJedang Corp. et al. in No. 19-1062, at 18-22.
Lilly will no doubt argue in opposition to certiorari
that the Federal Circuit’s decision was fact-bound and
case specific, since the court disavowed any effort to
articulate “bright-line rule[s]” that could guide future
courts or the public. Pet. App. 24a; see also Pet. App.
22a n.5, 23a. But the “know it when we see it” quality
of Federal Circuit’s application of a tangential
exception to estoppel is one of the central defects with
its approach, and it demands this Court’s correction.
After all, as this Court has recognized, “[a] zone of

18
uncertainty” about the scope of patent claims has the
potential to “discourage invention” to almost the same
extent as “unequivocal foreclosure of the field.” United
Carbon, 317 U.S. at 236; accord Nautilus, 572 U.S. at
909. That is why the Court has been careful to enforce
“well-established limit[s]” on the doctrine of
equivalents, to prevent that doctrine from
undermining “the definitional and public-notice
functions of the statutory claiming requirement.”
Warner-Jenkinson, 520 U.S. at 29. But the Federal
Circuit’s approach to prosecution history estoppel—
under which the doctrine’s application will turn on a
judge’s “case-specific” sense of whether a narrowing
amendment was deliberate or merely “inartful,” Pet.
App. 20a, 22a n.5—leaves the public to guess about
what a patent may legitimately exclude.
II. The Federal Circuit’s Tangential Exception
to Prosecution History Estoppel Will
Undermine Competition-Promoting
Investments in the Generic Drug and
Biosimilar Industries.
The uncertainty created by the Federal Circuit’s
approach to prosecution history estoppel in this case
and in Ajinomoto leaves American businesses without
meaningful guidance as to the metes and bounds of
patent claims. Reasonable competitors form their
business strategies based on the public record of a
patentee’s representations concerning the scope and
meaning of its claims. Without clear direction as to
how to interpret a patentee’s surrender of claim scope,
competitors will not be able to rely on prosecution
history when ascertaining the degree of lawful conduct
that is consistent with existing patent protections.

19
That uncertainty will have especially serious
implications for the pharmaceutical industry, in which
product development is both expensive and timeconsuming, and where navigating patent claims is a
routine part of doing business. As noted, p. 7, supra,
in recent years, brand manufacturers have
increasingly turned to a strategy of trying to delay
generic and biosimilar competition by accumulating
dozens of patents near the end of a product lifecycle
based on purported innovations regarding an existing
product’s method of manufacture or use. See Failure
to Launch, supra, at 7 n.3. 5 These patent estates chill
competition by increasing the costs of market entry.
Even if all of the brand manufacturer’s patents are
meritless, a manufacturer of generic or biosimilar
medicines will typically have to incur enormous
litigation expenses to prove that each patent is invalid.
See id. at 8 (citing report estimating litigation costs of
“roughly $3 million per patent”). The result is that
competition is often delayed until long after a generic
or biosimilar manufacturer secures regulatory
approval, depriving the public of access to these lower
cost medicines. Indeed, in a recent study, AAM
calculated that patent-induced delays in product
launches for biosimilar medicines with regulatory
approval have deprived the United States healthcare
system of $7.6 billion in biosimilar savings since 2012.
See id. at 7.
5 This case is illustrative. Lilly obtained a compound patent that
claimed pemetrexed itself more than 25 years ago. See Eli Lilly
& Co. v. Teva Parental Medicines, Inc., 689 F.3d 1368, 1373 (Fed.
Cir. 2012). But Lilly has been able to prevent generic competition
to its Alimta product by securing the follow-on method-oftreatment patent at issue here.

20
One path to avoid these patent estates is for
generic and biosimilar manufacturers to design
around a brand manufacturer’s patent claims, as
petitioners tried to do here. See, e.g., Schwarz Pharma,
Inc. v. Paddock Labs., Inc., 504 F.3d 1371, 1374-1378
(Fed.
Cir.
2007)
(affirming
judgment
of
noninfringement in favor of generic manufacturer
based on prosecution history estoppel). Such efforts
could lead to earlier generic and biosimilar
competition and significant public savings. But this
strategy is only feasible if generic and biosimilar
manufacturers can reliably discern the “boundaries” of
the brand manufacturer’s “patent monopoly,” Festo,
535 U.S. at 731, based on the language of its claims (as
informed by the patent specification) and the
prosecution history.
Even with the abbreviated approval pathways
established by Congress to speed the introduction of
lower-cost generic drugs and biosimilars, it takes
several years and millions of dollars to bring generic
and biosimilar products to market. In the case of
biosimilars, for example, product development
typically takes seven years and costs at least $100
million. 6 Generic drug and biosimilar companies must
be able to reliably forecast whether attempts to design
around a brand manufacturer’s patents are likely to
incur infringement liability. They cannot do so under
the Federal Circuit’s approach to prosecution history
estoppel, which authorizes courts to “ignore how [a]
patentee deliberately elected to narrow the claims,”
Ajinomoto, 932 F.3d at 1363 (Dyk, J., dissenting), and
6 Erwin A. Blackstone & Joseph P. Fuhr, Jr., The Economics of
Biosimilars, 6 AM. HEALTH & DRUG BENEFITS 469-478 (2013).

21
thus allows brand manufacturers to recapture
equivalents surrendered during prosecution by
arguing that they gave up more than they intended.
*****
The question presented frequently recurs in patent
litigation in the lower courts. See Pet. of Hospira, Inc.
in No. 19-1058, at 23 (collecting decisions). Given its
importance to the patent system and to competition in
major industries, including the pharmaceutical
industry, the Court should grant review.
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted.
EDWINA B. CLARKE
BRIAN T. BURGESS
GOODWIN PROCTER LLP Counsel of Record
100 Northern Ave.
WILLIAM M. JAY
Boston, MA 02210
GOODWIN PROCTER LLP
1900 N St., N.W.
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
Counsel for Amicus Curiae
March 27, 2020

